OFFICE OF THE FEDERAL DEFENDER
EASTERN DISTRICT OF CALIFORNIA
2300 TULARE STREET, SUITE 330
FRESNO, CALIFORNIA 93721-2226
(559) 487-5561 FAX: (559) 487-5950

Heather E. Williams
Federal Defender

Eric V. Kersten
Fresno Branch Chief

Benjamin D. Galloway
Chief Assistant Defender

November 5, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re: Melvin Whitehead v. United States of America, Case No. 20-5278
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on
August 28, 2020. The government sought and received one extension, making its
response due on or before November 2, 2020. The government filed its response
October 28, 2020. The next distribution date for IFP cases that falls 14 days after
October 28, 2020 is November 12, 2020.
Pursuant to this Court’s Order of March 19, 2020, Mr. Walker respectfully
requests to delay distribution of his petition for writ of certiorari until the week of
December 14, 2020, a delay of approximately 30 days. The delay is requested
because due to the press of business resulting from the global pandemic, counsel
has not taken any leave this year. In addition to her other matters, between
October 28 and 30, counsel received responses from the government to three
pending petitions for certiorari, including this one, as well a Ninth Circuit
decision that necessitates a petition for rehearing. Counsel has leave scheduled
the week of November 9, 2020 and November 23, 2020 to attend to family
matters.
Counsel for the government does not oppose this delay.
Sincerely,
s/ Peggy Sasso
PEGGY SASSO
Assistant Federal Defender
CC: Office of the Solicitor General

